March 28, 2001
Audit Report No. 01-012


Controls Over the FDIC’s Laptop
Computer Inventory
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                            Office of Inspector General

   DATE:            March 28, 2001

   TO:              Donald C. Demitros
                    Chief Information Officer



   FROM:            Sharon M. Smith
                    Assistant Inspector General

   SUBJECT:         Controls Over the FDIC’s Laptop Computer Inventory
                    (Audit Report No. 01-012)


   This report presents the results of the Office of Inspector General’s (OIG) audit of controls over
   the Federal Deposit Insurance Corporation’s (FDIC) laptop computer inventory. We performed
   this audit to assess the FDIC’s internal controls over its inventory of laptop computers.

   On October 21, 1997, the OIG issued an audit report entitled Audit of Safeguards Over EDP
   Equipment (Audit Report No. 97-103). That audit was a limited scope audit of the practices and
   procedures in the Washington, D.C. area. We concluded that effective accountability did not
   exist, especially regarding laptop computers. In addition, on August 28, 1998, the OIG issued an
   audit report entitled Computer Equipment and Software Inventories (Audit Report No. D98-078),
   which concerned only the FDIC’s Dallas office and the prior inventory management system
   being used by DIRM in the Dallas office. That report cited a lack of segregation of duties and
   problems similar to those we identified during the current audit. We performed this audit
   because establishing and maintaining effective accountability controls over computer-related
   equipment has been a continuing problem at the FDIC.


   BACKGROUND

   The FDIC spent more than $11.8 million during 1999 for personal computer and local area
   network (PC/LAN) equipment. Of that amount, $1.3 million (about 11 percent) was spent for
   laptop computers. For 2000, DIRM budgeted about $16.6 million for PC/LAN equipment. As
   of December 1, 2000, $8.1 million (about 49 percent) had been spent for laptops and another
   $2.2 million (about 13 percent) in laptop purchases were planned. Although according to the
   Chief of DIRM’s Fiscal Management Section, DIRM does not plan for any additional laptop
   purchases during 2001, the FDIC maintains a major investment in laptops. Further, because of
   the portability and vulnerability of laptops, some of which contain sensitive data, the FDIC needs
   good inventory management controls.

   DIRM is responsible for activities relating to the life cycle management of information
   technology (IT) assets at the FDIC. To assist DIRM in its responsibilities, in April 1997 DIRM
   let a $2.5 million contract with Innovative Logistics Techniques Inc. (INNOLOG) to staff and
operate DIRM’s distribution centers (DDC) and maintain an inventory management system to
assist DIRM in tracking the FDIC’s inventory of computer equipment.

In July 1999, DIRM let a $4.1 million contract with INNOLOG. Under this contract, INNOLOG
is responsible for the entire life cycle management of information technology assets and the
continued staffing of the two DDCs in the Washington, D.C. area. According to the contract,
INNOLOG is to provide:

•   IT management, including maintaining and enhancing a networked inventory management
    system for complete nationwide information technology visibility;
•   for the receipt, delivery, and storage of IT assets;
•   logistics analysis; and
•   IT asset inventory system support.

Further, INNOLOG is to conduct physical inventories of IT assets at the DDCs, FDIC
headquarters, regions, and field sites as required by DIRM. IT assets include desktops, laptops,
mainframes, telephones and other communication equipment, and computer software.

INNOLOG is also responsible for supporting DIRM’s Logistics Management Section (LMS).
The role of LMS is to support the acquisition, receipt, and management of the FDIC’s IT assets.
LMS also coordinates the distribution of IT assets to all sites and maintains the Information
Technology Asset Management System (ITAMS), the nationwide inventory management system.
As of July 15, 2000, the number of laptops recorded in ITAMS was 4,358. However, the control
weaknesses we identified cast doubt on the accuracy of that number.

During the period we conducted our audit, OIG Office of Investigations (OI) special agents were
investigating the apparent theft of approximately 65 laptop computers. As of February 8, 2001,
the OI special agents had recovered 29 laptops with 4 scheduled to be picked up. OIG special
agents are currently attempting to locate the remaining computers.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the FDIC was effectively controlling its
inventory of laptop computers. Initially, our audit focused on internal controls over all of the
FDIC’s information technology equipment. However, because of losses/thefts of laptops and
because of the vulnerability to loss or misappropriation of laptops, we revised our audit objective
to include controls over laptop computers only. Our audit covered the period January 1, 1999
through September 30, 2000.

To accomplish our audit objective, we interviewed DIRM personnel in the Washington, D.C.
area; Dallas, Texas; Boston, Massachusetts; and Chicago, Illinois. We also interviewed
INNOLOG personnel. We also reviewed certain aspects of the FDIC’s two contracts with
INNOLOG, and INNOLOG’s standard operating procedures (SOP) and management plan.
Specifically:



                                                 2
•   To familiarize ourselves with ITAMS, we reviewed policies and procedures for control of
    laptop acquisitions, laptops already recorded in ITAMS, movement of laptops from one
    location to another, and laptop disposals.

•   To test the accuracy of information recorded in ITAMS, we conducted a physical inventory
    of laptops at one DDC, compared the laptops maintained by selected laptop pool managers
    from various division/offices with information recorded in ITAMS, and identified the
    physical locations and/or the disposition of items in ITAMS’ Hubstore. (The Hubstore is a
    “virtual location” where equipment is temporarily assigned while it is moved between
    locations).

•   To obtain an understanding of physical inventories conducted, we reviewed physical
    inventory documentation and interviewed DIRM and INNOLOG personnel.

•   To evaluate the use of hand receipts, we reviewed DIRM hand receipts maintained by the
    DDC to determine compliance with Circular 1380.3, Laptop Computer Assignments,
    Safeguards and Asset Management, dated April 13, 1999. We compared selected hand
    receipts in INNOLOG’s files transferring laptops from one location to another with the
    information recorded in ITAMS.

•   To determine what happened to laptops reported as stolen, we traced the movement of
    specific laptops in ITAMS.

•   To identify oversight duties, we reviewed DIRM’s contract with INNOLOG, the DIRM
    oversight manager’s responsibilities as shown in the letter of oversight manager
    confirmation, and the oversight manager’s files relating to INNOLOG’s contract.

•   To verify the accuracy of barcoded information, we tested whether transfer information
    shown on various documents was reflected accurately in ITAMS.

•   To see if all items to be disposed of actually were disposed of, we compared a sample of
    laptop disposals with a list of items actually processed and transferred by DIRM to DOA.

•   To determine whether disposed of equipment was correctly recorded as inactive, we
    compared DOA lists of disposals to the ITAMS inventory.

We also reviewed reports prepared by Systems Resources Corporation, a contractor engaged by
the FDIC to perform an assessment of ITAMS’ functional and technical requirements to assist
the DIRM Logistics Management Section with its post-implementation review of ITAMS. We
performed our work primarily within DIRM’s Resource Management Branch in Washington,
D.C. We conducted the audit from July 2000 through October 2000 in accordance with
generally accepted government auditing standards.




                                               3
RESULTS OF AUDIT

We identified weaknesses in DIRM’s internal controls over the FDIC’s inventory of laptop
computers. First, DIRM did not ensure that incompatible duties were properly segregated.
Specifically, DIRM and INNOLOG employees had physical access to laptop computers and
access to the ITAMS database. Second, we found that FDIC and contractor employees were
misusing the Hubstore by assigning missing or unaccounted for laptops to the Hubstore instead
of promptly reporting the laptops as missing. Finally, no recent corporate-wide inventory of
laptop computers has been performed. As a result of these weaknesses, laptops were vulnerable
to theft without detection.


Inadequate Segregation of Duties

Our work showed that internal controls procedures did not provide for the basic segregation of
duties necessary to prevent misappropriation without detection. Specifically, all INNOLOG
employees working at the DDC could access, enter, and change information in the ITAMS
database. For example, the DDC employees who were responsible for handling the laptop
receiving functions were also responsible for entering the inventory information into ITAMS.
Therefore, these employees had the opportunity to misappropriate newly received laptops by
electing to not enter newly acquired laptops in ITAMS. In addition, there was no procedure for
independently validating that newly received laptops were recorded or recorded accurately on the
ITAMS inventory database. Although there was a procedure to ensure that the number of
laptops invoiced agreed with the number received, there was no procedure to independently
validate that the number of laptops received was actually entered into ITAMS.

Such internal control weaknesses could have played a role in the apparent theft of the 65 laptops
previously mentioned. A DIRM or INNOLOG employee having both physical access to laptop
computers and access to ITAMS database could have checked ITAMS to determine whether a
particular laptop was recorded in the system. If the employee determined that a laptop was not
recorded in ITAMS, the employee could misappropriate the laptop with little fear of detection.
Clearly, there is a need to separate the incompatible duties of access to the physical computer
inventory and the ability to access and alter the information contained in ITAMS.

During our audit, DIRM took action to improve controls over the receiving and initial recording
of laptops in ITAMS. Specifically, on September 29, 2000, DIRM issued an
INNOLOG-prepared SOP for the DDC. The newly issued SOP called for tracking item
acquisitions from the ordering point (i.e., purchase order forms, requisitions, credit card orders,
or other ordering vehicles). However, the SOP was not clear regarding when the ordering point
information should be matched against receipts and who should do it. The SOP also called for
receipts to be entered into the ITAMS Purchase Order Module (which would also update the
ITAMS inventory) but did not adequately describe who, specifically, was to make the entry. We
believe that the SOP should be sufficiently detailed to ensure proper segregation of duties.




                                                 4
DIRM management personnel agreed that duties should be segregated and that the SOP should
be updated.


Employee Misuse of the Hubstore

Our work showed that FDIC employees were misusing the Hubstore by assigning missing or
unaccounted for laptops to the Hubstore instead of reporting the laptops as missing. This
practice was in direct conflict with FDIC Circular 1380.3, which requires that employees report
any loss, damage, or theft to the nearest FDIC Security Office and notify the party who issued
the laptop. The party who issued the laptop is then required to notify the DDC. Further, because
there was no procedure to periodically check the Hubstore for items assigned there for an
extended period of time, there was little chance that the item would be detected as missing.

On September 26, 2000, 51 laptops were shown in ITAMS as being assigned to the Hubstore.
FDIC personnel could not account for 12 of the 51 laptops. For example, 1 of the 12 laptops
unaccounted for was assigned to the Hubstore on May 5, 2000. We contacted the property
accountability manager (PAM) to whom the laptop was assigned and asked the PAM why he
assigned the laptop to the Hubstore. The PAM told us that he had never received the laptop and,
because he did not know where it was, he assigned it to the Hubstore. According to the Circular
1380.3, the PAM should have alerted the nearest FDIC Security Office of the “missing” laptop
instead of simply assigning the laptop to the Hubstore. It is generally acknowledged that in cases
of missing inventory “time is of the essence.” That is, any delay in reporting a missing item
greatly lessens the chance of recovering the item.

As another example, according to ITAMS, a Boston DIRM contractor employee assigned 6 of
the 12 laptops to the Hubstore on February 25, 1999. We contacted the individual and asked him
why he assigned the laptops to the Hubstore. He told us that to the best of his recollection he
assigned the laptops to the Hubstore because the laptops were being sent back to Washington.
However, he could provide no supporting shipping documentation. He also told us that he
thought the 6 laptops may have been included among 19 laptops released as part of a program to
furnish surplus computers to schools. However, none of the barcodes or serial numbers for the
laptops included in the program matched those of the missing six laptops. We also contacted the
PAM in Boston to determine the whereabouts of the six laptops. The PAM confirmed that the
six laptops were unaccounted for. She researched hand receipts, e-mail archives, and lists for
school donations and discussed the situation with DIRM staff who worked in Boston at the time.
She informed us that she was unable to find any documentation related to the six laptops and that
none of the employees had any recollection of the laptops. In addition to the research performed
by the PAM, we reviewed laptop disposals between January 1, 1999 and August 31, 2000, and
we could not locate the laptops or determine the status of their disposition.

DIRM has been aware of control problems relating to the tracking of IT equipment and the
Hubstore. Specifically, as a result of a partial physical inventory conducted by INNOLOG
during the summer of 2000, INNOLOG recognized problems tracking IT equipment. The
problems INNOLOG cited include: inappropriate equipment put in the Hubstore and for too
long, the placement of unlocated equipment in virtual rooms, asset movement without the proper



                                                5
records, and equipment missing serial numbers. INNOLOG made recommendations to DIRM to
address each of the problems. To address tracking problems, the September 29, 2000 revision to
the SOP include the following requirements:

•   Each laptop movement must have a request for movement approved by LMS which has been
    counter signed by the DDC supervisor or manager.

•   Movements between the two DDCs must be accomplished through the Hubstore.

•   Any approved movement of equipment must be accompanied by a duly authorized hand
    receipt.

•   Faulty equipment accepted by helpdesk technicians must first be removed from the end user
    or location and transferred to Hubstore in ITAMS before the DDC will accept it.

•   INNOLOG personnel will compare the weekly DDC inventory of laptop computers with the
    detailed laptop computer records in the equipment module in ITAMS. The INNOLOG
    program manager will provide a root cause analysis on any differences found and report it to
    the DIRM oversight manager and technical monitor.

DIRM management agreed that the Hubstore was being used incorrectly and that the age of
Hubstore items should be periodically reviewed so that Hubstore issues can be resolved in a
timely manner.


A Corporate-wide Validation of ITAMS Laptop Information is Needed

Since INNOLOG’s contract began in 1997, neither INNOLOG nor DIRM had conducted a
complete physical inventory of laptop computers. However, in the summers of 1997, 1998, and
1999 DIRM was able to update the ITAMS database when individual laptop users had their
laptops reconfigured with new software. Specifically, as DIRM reconfigured the laptops, it
reviewed information on ITAMS and made any necessary corrections to the ITAMS inventory
record. Although DIRM’s actions were a positive attempt to correct inaccuracies in the ITAMS
database, more can be done.

Because of the FDIC’s major investment in laptop computers and the control weaknesses we
have identified regarding laptops, we believe that periodic corporate-wide validations of ITAMS
laptop information are warranted. We fully recognize the inherent difficulties of updating
ITAMS by conducting a complete physical count of laptops given the wide geographic diversity
of FDIC personnel. Nonetheless, we believe that DIRM should take certain measures to provide
greater assurance that information in ITAMS concerning laptop computer inventories is accurate.
We are not suggesting that DIRM perform a complete wall-to-wall inventory, which often
involves suspending or reducing operations and physically rearranging inventory to facilitate
counting. Instead, we believe that DIRM should periodically perform corporate-wide electronic
confirmations to improve the accuracy of the information in ITAMS. DIRM management agreed
that periodic corporate-wide certification of laptop computers should be conducted.


                                                6
Other Matters

During our review of laptop serial numbers, we discovered a problem that we believe should be
resolved in the next ITAMS update. Specifically, we found that INNOLOG personnel had
assigned one laptop serial number to two different barcodes. Then, in helping us research
additional serial numbers, DIRM LMS personnel identified another two instances of this
occurrence. One serial number should have only one corresponding barcode. Although ITAMS
has a control feature that ensures only one serial number can be assigned to a barcode, ITAMS
does not have a feature to prevent the alternative situation—more than one barcode being
assigned to one serial number. We believe ITAMS should include an automated check for
duplicate serial numbers just as it does for duplicate barcodes. DIRM personnel agreed and
stated that they would discuss this problem with the system developers.

In addition, we identified another problem that we brought to management’s attention during the
course of our work. Specifically, we found that the serial numbers related to five laptops had
been entered incorrectly in ITAMS. The errors appeared to be caused by data entry problems—
letter or digit transposition errors. We provided DIRM with the serial numbers that, according to
invoices, should have been entered into ITAMS, and DIRM agreed to physically verify the serial
numbers and then correct ITAMS.


CONCLUSION AND RECOMMENDATIONS

Because of the sensitive information stored on many laptops and because the FDIC is moving
forward with plans to replace its desktop personal computers with docking laptop computers,
thereby greatly increasing the number of laptops in its inventory, it becomes even more
important to properly control that inventory. Further, the concerns noted in this report can apply
to all types of IT equipment, not just laptops. Accordingly, we recommend that the Chief
Information Officer work with INNOLOG to:

(1)    Segregate data entry duties from receiving duties and ensure that personnel that receive
       equipment do not also have the ability to enter and/or modify information in ITAMS.
       (The SOP should be revised to specify who is to perform each step.)

(2)    Periodically review the age of items assigned to the Hubstore and timely resolve all
       Hubstore issues.

(3)    Periodically conduct corporate-wide certifications of laptop computers whereby FDIC
       personnel provide information (such as computer serial number, computer make and model,
       etc.) on the laptops in their possession.

(4)    Include an automated check for duplicate serial numbers in the next ITAMS update.




                                                7
CORPORATION COMMENTS AND OIG EVALUATION

On March 19, 2001, the FDIC’s Chief Information Officer, provided a written response to a draft
of this report. The Chief Information Officer’s response agreed with and provided the requisites
for management decisions on all four recommendations. We did not summarize the responses
because the actions planned or completed are the same as those recommended. Appendix II to
this report presents the responses.

The Chief Information Officer’s response also noted that DIRM had corrected the problems
noted under Other Matters in the report.

Appendix III presents management’s proposed actions on our recommendations and shows that
there is a management decision for each recommendation in this report.




                                               8
                                              CORPORATION COMMENTS                        APPENDIX I

Federal Deposit Insurance Corporation
3501 North Fairfax Dr., Arlington, VA 22226                              Office of the Chief Information Officer

                                                            March 19, 2001
TO:                   Sharon M. Smith
                      Assistant Inspector General

FROM:                 Donald C. Demitros
                      Chief Information Officer

SUBJECT:              DIRM Management Response to the Draft OIG Report Entitled, “Controls Over
                      the FDIC's Laptop Computer Inventory” (Audit Number 2000-207)


The Division of Information Resources Management (DIRM) has reviewed the subject draft
audit report and generally agrees with the findings and recommendations. Responses to each of
the specific recommendations (1 through 4) directed to DIRM are provided below.

DIRM would also like to respond to one other subject addressed in the draft report under Other
Matters. The report stated that the OIG found that the serial numbers relating to five laptops had
been entered incorrectly in ITAMS and the errors appeared to be caused by data entry problems.
DIRM was able to verify the serial numbers on all five of the laptops and corrected the ITAMS
errors.

Management Decision:

Recommendations: We recommend that the Director, DIRM, work with Innolog to:

(1) Segregate data entry duties from receiving duties and ensure that personnel that receive
    equipment should not also have the ability to enter and/or modify information in ITAMS
    (The SOP should be revised to specify who is to perform each step.)

        DIRM Response: Innolog receiving and ITAMS data processing activities were
        segregated, effective January 22, 2001. Effective March 16, 2001, the SOP was revised to
        reflect this procedural change.

(2) Periodically review the age of items assigned to the Hubstore and timely resolve all
    Hubstore issues.

        DIRM Response: On March 1, 2001, via a joint DIRM memorandum from the Deputy
        Director of Information Technology Management, and the Assistant Director of Client
        Services, each DIRM Regional Site Manager, Headquarters Property Accountability
        Manager, and Logistics Management Section (LMS) management was directed to review a
        report of pending Hubstore items, coordinating with other regional sites as may be required,




                                                     9
    to ensure that appropriate ITAMS transactions are made to move any pending Hubstore
    items to the correct site. All such move transactions must be supported by the physical
    identification of the equipment in question, or documentation supporting that the equipment
    was disposed. All Hubstore cleanup activities must be completed by Monday, April 16,
    2001. By April 16th, site representatives are to notify their respective Client Services
    Branch or Logistics Management Section management, as appropriate, of any remaining
    unresolved items. A field entitled 'Resolution' was included in the Hubstore report to enable
    sites to record how the item was or should be resolved. In addition, sites were reminded
    that the Hubstore should only be used as a virtual, temporary holding place for equipment
    being transferred between sites.

    Following the completion of the aforementioned Hubstore clean-up activities, LMS will
    generate a report reflecting all items that have been in the Hubstore for more than 15 days.
    This report will be generated and distributed to Regional Site Managers and LMS staff on a
    biweekly basis for site Hubstore resolution.

(3) Periodically conduct corporate-wide certifications of laptop computers whereby FDIC
    personnel provide information (such as computer serial number, computer make and model,
    etc.) on the laptops in their possession.

    DIRM Response: DIRM conducted corporate-wide certifications during the 4th quarter of
    2000. DIRM will continue to conduct corporate-wide certifications of laptop computers by
    having FDIC personnel provide information (computer serial number, computer make and
    model, etc.) on the laptops in their possession on an annual basis.

(4) Include an automated check for duplicate serial numbers in the next ITAMS update.

    DIRM Response: With the completion of the March 2001 implementation of ITAMS Version
    4.03, the ITAMS-imbedded SQ4 reporting tool was replaced with Business Objects, DIRM's
    standard corporate query tool. This significantly improves reporting performance and
    capabilities. During April 2001, a standard query report will be developed for identifying
    duplicate serial numbers.

Please address any questions to DIRM's Audit Liaison, Rack Campbell, on (703) 516-1422.




                                              10
                                                                                                                                APPENDIX II
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   ! the specific corrective actions already taken, if applicable;
   ! corrective actions to be taken together with the expected completion dates for their implementation; and
   ! documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report.




                                                                      11
                                                                              Documentation
                                                                                That Will                    Management
 Rec.                                                         Expected           Confirm          Monetary   Decision: Yes
Number   Corrective Action: Taken or Planned/Status        Completion Date     Final Action       Benefits      or No
                                                                                 INNOLOG
         INNOLOG receiving and ITAMS data
  1                                                        March 28, 2001    Standard Operating     N/A          Yes
         processing duties have been segregated.
                                                                                 Procedures
         A DIRM memorandum directed designated
         managers in headquarters and the field to
         perform specific Hubstore clean-up activities;                          DIRM
  2      DIRM modified the Hubstore report to include       April 16, 2001   memorandum and         N/A          Yes
         a resolution field; and DIRM LMS will print a                       Hubstore reports
         biweekly report of items remaining in the
         Hubstore for more than 15 days.
         DIRM will conduct Corporate-wide                                       Certification
  3      certifications of laptop computers on an annual   March 28, 2001       requests and        N/A          Yes
         basis.                                                                  responses
         DIRM will modify ITAMS Version 4.03 to
                                                                              Standard Query
  4      include a standard report query to identify         May 1, 2001                            N/A          Yes
                                                                                  Report
         duplicate serial numbers.




                                                                  12
